No. 19-899
In The

Supreme (Eauri of il\e ^nxizh
Shaniz West,
Petitioner,
V.

Doug Winfield, et al..
Respondents.
CERTIFICATE OF SERVICE
I, Jessica Ring Amunson, hereby certify that I am a member of the Bar of this
Court, and that I have this 20th day of February 2020, caused three copies of the Brief of
The DKT Liberty Project, The Due Process Institute, The Rutherford Institute, and
Reason Foundation as Amici Curiae in Support of Petitioner to be served via overnight
mail and an electronic version of the document to be transmitted via the Court’s
electronic filing system to:
Robert James McNamara
Institute for Justice
901 N Glebe Road
Suite 900
Arlington, VA 22203
(703) 682-9320
rmcnamara@ij .org

Richard A. Simpson
Wiley Rein, LLP
1776 K Street, NW
Washington, DC 20006
(202) 719-7314
rsimpson@wileyrein.com
Counsel for Doug Winfield, et al.

Counsel for Shaniz West

r\

Jessica Ri]% Amunson

'

